                          Department of the Interior
                          Office of Inspector General



              AUDIT REPORT




               U.S. Fish and Wildlife Service
            Wildlife and Sport Fish Restoration
          Program Grants Awarded to the State of
          Ohio, Department of Natural Resources,
           Division of Wildlife, from July 1, 2005,
                   Through June 30, 2007




Report No. R-GR-FWS-0003-2008               October 2008
                United States Department of the Interior
                              OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                   October 16, 2008

                                       AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Ohio, Department of Natural Resources, Division of
           Wildlife, from July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0003-2008)

        This report presents the results of our audit of costs incurred by the State of Ohio (State),
Department of Natural Resources (Department), Division of Wildlife (Division) under grants
awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State
under the Wildlife and Sport Fish Restoration Program (the Program). The audit included claims
totaling approximately $42.4 million on three grants that were open during State fiscal years
(SFYs) ended June 30 of 2006 and 2007 (see Appendix 1). The audit also covered Division
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we found the Division included licenses it should not have in
its reported count of license holders to FWS, charged the grants for ineligible expenses,
improperly managed and used land purchased with grant funds, inadequately accounted for in-
kind (non-cash) contributions accumulated, and had inadequate controls over equipment and
land.

         We provided a draft report to FWS and the Department for a response. The Department
indicated that Division officials prepared the response. We summarized the Division and FWS
Region 3 responses after each recommendation, as well as our comments on the responses. We
list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
January 14, 2009. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.
       If you have any questions regarding this report, please contact the audit team leader,
Mr. Peter A. Rich, or me at 703–487–5345.

cc:    Regional Director, Region 3, U.S. Fish and Wildlife Service




                                                2
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their wildlife and sport
fish resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Division:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $42.4 million on the 3 grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Division Headquarters offices in Columbus,
OH, and visited two district offices, four wildlife areas, one fish hatchery and one research
center (see Appendix 2). We performed this audit to supplement, not replace, the audits required
by the Single Audit Act Amendment of 1996 and by Office of Management and Budget Circular
A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Division;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Division used hunting and fishing license revenues solely for
       administration of the Division; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Division operations.

Prior Audit Coverage

On December 23, 2002, we issued “Final Audit Report on Costs Claimed by the State of Ohio,
Department of Natural Resources, under Federal Aid Grants from the U.S. Fish and Wildlife
Service from July 1, 1999 through October 1, 2001” (No. 2003-E-0007). We followed up on all
recommendations in the report and found that one recommendation has not been implemented.
The unimplemented recommendation relates to the Division’s use of license revenue to make
payments in lieu of taxes (Recommendation C.1). In our current audit, we found that the State
has stopped using license revenue to make payments in lieu of taxes and has changed its
regulations accordingly. Therefore, we are not reporting on this matter again.

We reviewed Ohio’s Comprehensive Annual Financial Report and Single Audit Report for
SFY2006. Neither of these reports contained any findings that would directly impact the
Department’s Wildlife and Sport Fish Restoration Program grants or programs under the grants.



                                             4
In addition, the Department’s Wildlife and Sport Fish Restoration Program was not selected for
compliance testing in the SFY2006 Single Audit. The Single Audit Report and the
Comprehensive Annual Financial Report for SFY2007 had not been issued by the end of our
fieldwork.




                                           5
                                   Results of Audit
Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Free Licenses Counted in the License Certification. The Division included senior
       citizens who were issued free licenses in its certified count of license holders.
       Regulations specify that only revenue-generating licenses may be counted.

       Fringe Benefits for Seasonal Employees Inappropriately Charged to Grants. The
       Division charged Program grants for all fringe benefits for seasonal employees, even
       though it did not provide all fringe benefits to them.

       Management of Killdeer Plains for Dog Field Trials Incompatible With Intended
       Grant Purposes. The Division managed a significant portion of Killdeer Plains Wildlife
       Area for dog field trials rather than for its intended purpose—bird and wildlife habitat.

       Inadequate Procedures to Accurately Account for In-kind Volunteer Hours. The
       Division planned to use the value of volunteer hours contributed to meet its State
       matching share of costs on certain grants. They could not do so, however, because they
       did not maintain adequate support for or properly account for the volunteer hours worked.

       Personal Property (Asset) Management Not Adequate to Safeguard Property. The
       Division’s property records were not current, complete, or accurate, and it therefore could
       not adequately safeguard property from loss, damage, or theft.

       Vending Machines Purchased With Federal Funds Have Not Been Used. Two
       vending machines purchased with Program funds were not being used. Federal
       regulations require all equipment purchased with federal funds to be used for their
       intended purpose.

       Real Property Records Not Reconciled. The Division has not reconciled its land
       records with those of FWS.

Findings and Recommendations
A.     Free Licenses Counted in the License Certification

       Each State provides a certified count of hunting and fishing license holders to FWS each
       year. FWS determines the amount of grant funding to provide to each State each year


                                            6
based, in part, on the number of hunting and fishing license holders reported, so the
accuracy of the count is important. The Division, as required by the Ohio revised code,
issues free hunting and fishing licenses to resident senior citizens born on or before
December 31, 1937. It includes these license holders in its count. However, under
Federal regulations, each State may include only licenses that earn net revenue to the
State in its counts. Confusion exists because the Ohio State legislature reimburses the
Division for the cost of the licenses and lost revenue. The State deposits these funds into
the Division’s wildlife fund. The Division therefore earns net revenue from the licenses,
the State does not.

According to 50 C.F.R. § 80.10(c)(2), licenses which do not return net revenue to the
State shall be excluded from the annual certification to the FWS. Net revenue is any
amount returned to the State after deducting costs directly associated with the issuance of
each license. However, under the Ohio Revised Code, the wildlife fund is reimbursed for
the cost of hunting and fishing licenses, permits, and stamps that the State requires the
Division to issue free of charge. The amount transferred is based on the sales data from
the previous year, but shall not exceed $1 million.

The Division sought guidance from the FWS regional office when the State legislature
proposed issuing free licenses. The FWS regional office granted the Division approval to
include the free licenses in the annual count provided that it was reimbursed for all costs
and fees plus a small profit. The language in the C.F.R., however, requires the net
revenue to be generated for the State, not just the Division.

In sum, the Division includes licenses in its annual certification that, although generate
net revenue to the Division, do not generate net revenue to the State. As a result, the
Division’s annual apportionments of grant funds may be larger than they should be. For
example, the Division’s 2006 license certification included over 142,000 free hunting and
fishing licenses.

Recommendation

We recommend that FWS determine whether it was appropriate for the Division to
include the licenses in question in its annual certification and what corrective action the
State should take if the licenses should not have been included in the certification.

Division Response

Division officials stated that they believed they acted appropriately since FWS had
granted approval to include the free licenses in the license certification. However, the
officials stated that they discontinued certifying free licenses in the most recent
certification submitted August 27, 2008.




                                      7
     FWS Response

     FWS regional officials stated that they concur with the recommendation and that the
     Division’s comments would be considered in the corrective action plan.

     OIG Comments

     We commend the Division for excluding free licenses in its certifications moving
     forward. To fully implement the recommendation, FWS should also work with the
     Division to determine what, if any, corrective action should be taken for the licenses
     included in prior year certifications. Therefore, in addition to the information provided in
     the response to the draft report, the corrective action plan should include:

        •   actions taken, if any, to address license certifications that included free licenses;

        •   targeted completion dates for those actions;

        •   titles of officials responsible; and

        •   verification that FWS headquarters officials reviewed and approved of all actions
            taken or planned by the Division.

B.   Fringe Benefits for Seasonal Employees Inappropriately Charged to Grants

     The Division charges Program grants for labor costs associated with grant-related
     activities. When Division personnel calculated the fringe benefit portion of labor costs
     for each grant, they used a predetermined fringe benefit rate which included all fringe
     benefit costs. The Division applied the fringe benefit rate to the salaries for seasonal
     employees and charged the grants for these costs. However, seasonal employees do not
     receive all fringe benefits. Therefore, the Division claimed costs to which it was not
     entitled.

     Under 50 C.F.R. §§ 80.15 and 80.16, grantees may charge to the grants only costs which
     are necessary and reasonable for accomplishment of approved project purposes and
     which are in accordance with the cost principles of OMB Circular A-87 (now 2 C.F.R. §
     225). These regulations also specify that the federal share of allowable costs includes
     only costs incurred by the State in accomplishing approved projects. We did not
     compute the monetary effect because the Division could not provide us with the
     information necessary to compute the amount in question.

     Recommendations

     We recommend that FWS:




                                           8
     1.       require the Division to calculate the amount that it charged for fringe benefits for the
              seasonal employees during the two year grant period and determine what corrective
              action the Division should take to address those costs and

     2.       ensure that the Division does not charge the grants for fringe benefits to which
              seasonal employees are not entitled.

     Division Response

     Division officials stated that they did not believe the application of the fringe benefit rate
     was inappropriate. However, the officials stated that the State’s new payroll accounting
     system will be able to apply actual fringe benefit rates for individual employees every
     pay period. Division personnel will work with the Office of Information Technology to
     apply actual rates for each employee. Officials anticipate the action being completed by
     June 30, 2009 and have given responsibility for implementation to the Division’s
     Revenue Administrator and IT Coordinator. During the interim period, the Division will
     not apply fringe benefit rates to payroll costs.

     FWS Response

     FWS regional officials stated that they concur with the recommendations and that the
     Division’s comments would be considered in the corrective action plan.

     OIG Comments

     FWS concurred with the recommendations. The Division provided a corrective action
     only for fringe benefits moving forward. Therefore, in addition to the information
     contained in the response to the draft report, the corrective action plan should contain:

          •     the actions taken or planned to address the first recommendation;

          •     targeted completion dates for actions taken or planned;

          •     titles of officials responsible; and

          •     verification that FWS headquarters officials reviewed and approved of actions
                taken or planned by the Division.

C.   Management of Killdeer Plains for Dog Field Trials Incompatible with Intended
     Grant Purposes

     Killdeer Plains Wildlife Area consists of 9,230 acres, acquired in part with Program
     funds for pheasant and fox squirrel habitat, as well as possible return of prairie chickens
     and waterfowl to the area. The Division manages about 4,000 acres of this area for dog
     field trials. During field trials, judges assess the performance of dogs. Management for
     field trials consists of activities such as mowing much of the site in a checkerboard


                                               9
pattern. The field trial area also includes a dog kennel, corral, and horse stables. While
the trials are held only on weekends in April, May, September, and October, the effects
of the management last all year. The management of the land for field trials is not
compatible with the intended land use of preserving native grasses and providing nesting
habitat for ground birds and animals.

Federal regulations (50 C.F.R. § 80.14 (2)) clearly state that when “property is used for
purposes which interfere with the accomplishment of approved purposes, the violating
activities must cease and any adverse effects resulting must be remedied.” Additionally,
the FWS approved the 2008 — 2009 grant under the condition that “the inappropriate use
of Federally acquired land at Killdeer Plains … be terminated after the spring 2008 field
trials. Failure to address this inappropriate use will jeopardize funding and the
Comprehensive Management System grant overall.”

FWS initially expressed concern about the excessive management for field trials in 1999,
and has given the Division at least nine years to find alternative property for the field
trials. The Division issued permits for field trials at Killdeer Plains through the spring
2008 field trial season. The Division has tried to relocate the field trials to other
properties, but has been unsuccessful because the field trial permit holders have been
adamant about staying on the property, claiming all other proposed properties are
unacceptable.

Because the Division has allowed field trials to be held on Killdeer Plains Wildlife Area,
the acreage is not being managed for the purpose for which the property was originally
acquired. According to the FWS, failure to cease conducting field trials and begin
managing the property for native prairie grasses could result in the Division losing
federal funding.

Recommendations

We recommend that FWS require the Division to:

1. terminate managing the Killdeer Plains Wildlife Area for field trials and

2. cease issuing permits for field trials at Killdeer Plains Wildlife Area.

Division Response

Division officials stated that they worked with FWS and the Ohio Bird Dog Association
to address the recommendations. The Division will not allow dog field trials at Killdeer
Plains after October 25, 2009, and have given responsibility for implementing this action
to the Division’s Assistant Chief. It will not request any Program reimbursement for
activities conducted at Killdeer Plains until dog field trials are eliminated at that location.
Division officials stated they realize failure to honor this commitment jeopardizes
Division eligibility for Program grants. The Division’s response included a target
completion date and the name and title of the responsible official.


                                      10
        FWS Response

        FWS regional officials stated that they concur with the recommendations and that the
        Division’s comments would be considered in the corrective action plan.

        OIG Comments

        FWS regional officials concurred with the recommendations, and Division officials
        articulated a plan to address the recommendations. The corrective action plan should
        include the information contained in the response to the draft report and verification that
        FWS headquarters officials reviewed and approved of actions taken or planned by the
        Division.

D.      Inadequate Procedures to Accurately Account For In-Kind Volunteer Hours

        The Acts require States to pay for at least 25 percent of grant expenditures with non-
        federal funds, which are referred to as “State matching” funds. To meet this requirement
        on its hunter education, aquatic education, and “Step Outside” projects 2 under Grants
        W-134-P-9 and F-69-P-9, the Division intended to use the value of volunteer instructor
        hours. States may use such third party “in-kind” (non-cash) contributions for the State
        matching share of costs, but it must adequately document them. We identified problems
        with the Division’s support for the hours worked and the accuracy of information
        contained in the databases used to report and summarize the hours. Based on preliminary
        information we provided to the Division on this finding, the Division decided not to use
        the volunteer hours to meet the State’s matching share requirement. We note the
        problems identified, however, because they are significant and could affect future
        allowable federal reimbursements.

        Federal regulations (2 C.F.R. § 225.55 C1(j)) require grantees that receive federal awards
        to adequately document costs. Under 43 C.F.R. § 12.64(6), when grantees use third party
        in-kind contributions to satisfy a cost sharing or matching requirement, the value of the
        contributions must be verifiable from the records of grantees, subgrantee, or cost-type
        contractors. The regulation also requires grantees, to the extent feasible, to document
        volunteer services by the same methods the organization uses to document how regular
        personnel costs should be allocated.

        We reviewed the “Final Report” forms, which the Division’s Outdoor Education Section
        (Section) used to input volunteer hours in the databases and which the Division relied on
        to provide support for the hours worked. We reviewed a sample of 19 percent of the
        hours. We found that a significant portion of the volunteer instructor hours reviewed
        were not adequately verified by each volunteer (Table 1).




2
 The Step Outside Program is a grant program administered by the Division and includes both hunter and aquatic
education classes.

                                                  11
       Class Type                  2006                              2007
                            Hours     Hours               Hours            Hours
                            Tested Unsupported            Tested         Unsupported
 Hunter Education              362        102                310               98
 Aquatic Education           6,013      1,409              1,200              909
 Step Outside -              4,731      2,968              4,568            2,057
 Hunter
 Step Outside -             7,375           5,240           5,371           1,594
 Aquatic

                Table 1. Hours Not Certified By Individual Instructors

Division officials were unaware that they should use the same method to allocate
both regular personnel costs and the value of time donated by volunteer instructors.
They therefore did not require each instructor to certify his or her hours worked,
although they do require regular personnel to do so. Division officials believe that
the hours recorded on the forms are accurate and properly certified because for the
three projects (hunter education, aquatic education and Step Outside), the chief
instructor signed and certified the total hours on the final report forms. Division
officials said the chief instructors are aware of instructor hours through visual
observation and discussions. Division officials added that if FWS requires all
volunteer instructors to sign the Final Report form, the Division will comply. We
also reviewed calculations on a sample of the Final Report forms and identified
calculation errors.

The Section maintains information on the volunteer instructor hours in three
separate databases, one database for each of the three programs. We found that the
databases for all three programs contained inaccurate data. We identified instances
in which Section personnel:

   • entered an incorrect number of hours into the databases from the Final
       Report forms;

   • entered multiple listings for the same class in the aquatic education and Step
       Outside databases;

   • misclassified classes in the Step Outside database as aquatic or hunter
       education classes;

   • entered total hours for an event—rather than just those pertaining to aquatic
       or hunter education—into the database.

Section personnel conduct a pre-entry audit before entering information into the three
databases of volunteer hours. However, the audit was not sufficient to catch errors that
existed in information entered onto the Final Report form. Additionally, Section
personnel do not conduct periodic reviews of the data in the database to ensure its

                                     12
accuracy. A Section Official also said the Section had some problems retrieving data
from the databases.

We are not questioning any costs because the Division chose not to claim any in-kind
contributions on its final SF-269s for the affected grants. If the Division intends to claim
volunteer hours as the State matching share of costs in the future, however, it will need to
address the problems identified.

Recommendations

We recommend that FWS require the Division to:

1. establish and implement procedures requiring each volunteer instructor to certify the
   hours they worked; and

2. institute a series of internal controls over the data in databases containing volunteer
   hours, including such steps as independent verification of data entry and periodic
   independent review of database information and queries.

Division Response

Division officials stated that, by January 1, 2009, they would:

   •   work with FWS to change the final report form to 1) include signatures from all
       instructors as well as each instructor’s travel, preparation time, and instruction
       time and 2) delineate (for the Step Outside Program) hours spent on aquatic
       activities and hunter education activities;

   •   develop processes for each coordinator and section supervisor to verify hours on
       final report forms, match this information with database entries, periodically
       check the databases for duplications, and establish a periodic internal audit; and

   •   change the Step Outside database table to total these hours separately.

The Division’s Outdoor Skills Supervisor is responsible for implementing the actions
proposed by January 1, 2009.

FWS Response

FWS regional officials stated that they concur with the recommendations and that the
Division’s comments would be considered in the corrective action plan.

OIG Comments

FWS regional officials concurred with the recommendations, and the Division developed
actions to address the recommendations. The corrective action plan should include the


                                     13
          information provided in the response to the draft report as well as verification that FWS
          headquarters officials reviewed and approved of actions taken or planned by the Division.
E.        Personal Property (Asset) Management Not Adequate to Safeguard Property

          Federal regulations require grantees to maintain control of personal property and
          equipment purchased with grant funds. The Ohio Department of Administrative Services
          (DAS) determines Ohio asset management policies and procedures. The Department of
          Wildlife (Department) may further refine these policies and procedures. The Division,
          located within the Department, is charged with executing these policies and procedures
          for Program grants.

          The Division’s Fixed Asset Management System (FAMS) equipment inventory listing
          and its Fleet Management Inventory listing contained a combined total of 10,334 items
          valued at $22.4 million. To test the Division’s controls over its equipment and vehicles,
          we selected a judgmental sample from these listings and inspected them at eight
          locations. 3 Our sample included 158 items valued at $797,824. Additionally, at the
          eight locations visited, we randomly selected another 91 items to determine whether they
          were recorded in the inventory listings (reverse testing). We identified items that could
          not be located, were not tagged, were not at their assigned locations, or could not be
          traced to the inventory listings.

                                                                                                               Reverse
                                                                         Judgmental Sample                     Sample 4
                                                                         Number                               Number of
                                Deficiency                               of Items   Value                       Items
           Not located                                                        13    $20,136
           Not tagged                                                         16    $16,468                        28
           Not at assigned location                                            7  $110,772                          2
           Could not Trace                                                                                         48
           Tag number traced to unrelated item                                                                      1
           Item not identify as being purchased                                                                     1
           with Federal funds

                                               Table 2. Equipment Testing Results

          During our testing of other direct costs, we also identified three items that should have
          been included in the inventory listings, but were not.

          According to 50 C.F.R. § 80.19, the State must maintain current and complete property
          and procurement records in accordance with requirements contained in the Federal Aid
          Manual and OMB CircularA–102(a). The table below illustrates the different thresholds
          and policies utilized by the State and Department:



3
  District 2 Office, Findlay; District 3 Office, Akron; Salt Fork Wildlife Area (WA), Delaware WA, Spring Valley WA, Killdeer Plains WA, the
London Fish Hatchery, and the Olentangy Research Center.
4
  We did not determine the value of these items as the test was primarily to determine whether they were recorded on the inventory listings.


                                                               14
                                                                                  Difference
                                                                                Between State
                                                                                      and
                                                                Department       Department
            Policy Description            State Policy            Policy        Requirements
Tangible personal property threshold            $1,000            $300               $700
Intangible personal property                   $100,000      No stated policy        N/A
threshold
Firearms threshold                         Regardless of      Regardless of      No difference
                                               cost               cost
Sensitive property threshold (includes:       $500           Regardless of           $500
audio visual equipment, audio                                    cost
equipment, communications
equipment, antiques, moveable works
of art, data processing equipment
excluding DP software and furniture,
surveillance equipment, and power
tools)
License vehicles threshold                Regardless of       Regardless of      No difference
                                                cost               cost
Physical Inventory Certification              Biennial          Annually            1 year
Valuation of recorded asset               Historical cost,   No stated policy        N/A
                                             estimated
                                          historical cost,
                                          or Fair Market
                                             Value, if
                                              donated

                                   Table 3. Policy Comparison

    As outlined in Table 3, the Department’s asset reporting threshold for tangible personal
    property of $300 increases the number of items to be tracked in the asset management
    system. Approximately 33 percent of items on the active inventory list (3,285 items)
    were sensitive items valued at $300 or less. This threshold consequently increases the
    number of manpower hours required to maintain the system. Using higher dollar
    thresholds could help the Department to prioritize which property to focus on and could
    help to address staffing challenges.

    Additionally, asset management has not been a Division priority. When the individual
    responsible for inventory control retired several years ago, he was never replaced due to a
    hiring freeze. Responsibility for inventory passed to several different personnel.
    Turnover among staff assigned these responsibilities exacerbated the problem. However,
    with the phased conversion to a new accounting system, Division management is making
    efforts to update and correct the inventory database.

    Inadequate control over equipment increases the risk of property loss, damage, or theft.




                                          15
     Recommendations

     We recommend that FWS ensure the Division:

     1.   accurately updates the data in the FAMS and takes steps to ensure they maintain it in
          the future,

     2.   tags untagged items, and

     3.   works with the Department and the State to review the threshold for sensitive
          property and revise the threshold if appropriate.

     Division Response

     Division officials stated that the Division transitioned to a new inventory system on July
     1, 2008. The Department is in the process of updating the inventory policy and
     procedures. Division officials indicated they should implement the recommendations by
     June 30, 2009, and have placed responsibility for implementation with the Accounts
     Payable Administrator.

     FWS Response

     FWS regional officials stated that they concur with the recommendations and that the
     Division’s comments would be considered in the corrective action plan.

     OIG Comments

     FWS should review the new procedures to ensure they address the recommendations. In
     addition to the information provided in the response to the draft report, the corrective
     action plan should include:

          • the specific actions taken or planned to address each recommendation;

          • targeted completion dates for each action;

          • title of officials responsible; and

          • verification that FWS headquarters officials reviewed and approved actions taken
            or planned by the Division.

F.   Vending Machines Purchased With Federal Funds Have Not Been Used

     We identified two vending machines purchased for $6,654 on September 30, 2003, for
     the Spring Valley Wildlife Area shooting range. Because of the remoteness of the
     shooting range, the State acquired the machines to provide shooting supplies (such as
     earplugs, targets, and shooting permits), snacks, and beverages on-site for the

                                           16
convenience of shooting range users. The State charged Grant W-134-P for these costs
($4,991federal share). We found these machines were in storage and consequently not
being used for their intended purpose.

In conducting activities funded under the Acts, 50 C.F.R. § 80.18(c) requires the State to
maintain accountability and control of all assets. It must assure that the assets serve the
purpose for which they were acquired throughout their useful life.

The Spring Valley Wildlife Area supervisor stated that to put the vending machines into
service, the Division needs to build an 8-foot storage shed that has a ramp, a concrete
base, and a roll cage that could be secured when the shed is not in use. The shooting
range never received spending authority to build such a structure, and therefore the
vending machines have not been used as intended.

While the Division expects to receive spending authority for the shed in SFY2009, the
machines have not been used for grant-related purposes to date.

Recommendation

We recommend that FWS work with the State to ensure they use the vending machines
for their intended purpose or determine an appropriate corrective action if they cannot do
so.

Division Response

Division officials stated that personnel built the required structure to secure the vending
machines. The officials indicated that by January 1, 2009, they would develop internal
control procedures to operate the vending machines and would use the vending machines
for their intended purpose once the procedures are in place. The Division District Five
Manager has responsibility for implementation.

FWS Response

FWS regional officials stated that they concur with the recommendation and that the
Division’s comments would be considered in the corrective action plan.

OIG Comments

Placing the vending machines in use for the intended purposes and developing procedures
for operation should address the recommendations. The corrective action plan should
include the information provided in the response to the draft report as well as verification
that FWS headquarters officials reviewed and approved actions taken or planned by the
Division.




                                     17
G.   Real Property Records Not Reconciled

     The State and FWS each maintain records on land purchased with Program grants. The
     Division provided us with a copy of the 2006 land inventory for the entire Department.
     According to the report, the Division has approximately 185,800 acres which cost
     approximately $70.1 million to acquire. Conversely, FWS land records show
     approximately 118,800 acres costing over $45.2 million. Additionally, the Division’s
     land records use a generic funding source for any funds used prior to 1973, rather than
     identifying federal funds used.

     Federal regulations (50 C.F.R. § 80.19) require each State to maintain current and
     complete property records in accordance with the requirements contained in the FWS
     Manual and 2 C.F.R. § 235. In addition, 50 C.F.R. § 80.18 and the FWS Manual (522
     FW 1.16) require each State to maintain accountability and control of all assets acquired
     with grant funds provided under the Program, to assure that the assets are used for the
     purpose for which they were acquired throughout their useful life. Finally, 50 C.F.R. §
     80.4 extends the same accountability requirements to those assets acquired with license
     revenues.

     Maintaining accurate land records are an important step to ensure accountability for and
     effective control over lands purchased with Program grant funds and license revenue. A
     Division official said they have not reconciled all of their land records with FWS land
     records to determine their accuracy and completeness. The Division and FWS have
     reconciled records for lands purchased under land acquisition Grant W-136-L-1 and are
     in the process of reconciling those records for lands purchased under Grant W-136-L-2,
     which was open during our audit. However, no reconciliation has been done for those
     lands acquired from 1937 to approximately 2003.

     Recommendations

     We recommend that FWS require the Division to:

     1. reconcile its land records with FWS land records and

     2. ensure any land purchased with federal funds is appropriately identified as such in its
        land records.

     Division Response

     Division officials acknowledged that the total number of acres in the land inventory
     records would not match those of the FWS because not all Division lands were purchased
     with Program funds. The Division also agreed that it needs to update its land records to
     identify the funding source for all the parcels that it owns. The Division anticipates
     implementing the corrective actions by January 1, 2010 and placed responsibility for
     implementation with the Federal Aid Coordinator.



                                         18
FWS Response

FWS regional officials stated that they concur with the recommendations and that the
Division’s comments would be considered in the corrective action plan.

OIG Comments

The corrective action plan should include the information provided in the response to the
draft report as well as verification that FWS headquarters officials reviewed and
approved actions taken or planned by the Division.




                                    19
                                                                                                   Appendix 1



       OHIO DEPARTMENT OF NATURAL RESOURCES, DIVISION OF WILDLIFE
                F INANCIAL SUMMARY OF R EVIEW C OVERAGE
                    JULY 1, 2005, THROUGH JUNE 30, 2007




                                  Grant             Grant              Claimed
                                 Number            Amount               Costs

                              F-69-P-9 5         $26,255,515         $21,053,616

                              W-136-L-2             7,040,509           6,807,530

                              W-134-P-9           14,883,933          14,573,571

                              TOTALS             $48,179,957         $42,434,717




5
 As part of a Comprehensive Management State (CMS), the Ohio Department of Natural Resources, Division of
Wildlife has one grant for Sport Fish Restoration and one grant for Wildlife Restoration covering both SFYs in our
audit. The grants support multiple Wildlife and Sport Fish Restoration Program projects. The third grant is for land
acquisition.

                                                    20
                                                    Appendix 2


OHIO DEPARTMENT OF NATURAL RESOURCES, DIVISION OF WILDLIFE
                      SITES VISITED
                        Headquarters
                         Columbus

                       District Offices
                       District 2 Findlay
                       District 3 Akron

                        Wildlife Areas
                          Delaware
                        Killdeer Plains
                           Salt Fork
                        Spring Valley

                        Fish Hatchery
                           London

                            Other
                   Olentangy Research Center




                          21
                                                                                   Appendix 3



                   OHIO DEPARTMENT OF NATURAL RESOURCES
                             DIVISION OF WILDLIFE
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

 Recommendations                    Status                         Action Required

A, B.1, B.2, C.1, C.2,   FWS management concurs         The corrective action plan should
D.1, D.2, E.1, E.2,      with the recommendation, but   include the information provided in
E.3, F, G.1, and G.2     additional information is      the response to the draft report; any
                         needed, as outlined in the     additional actions taken, if any, to
                         “Actions required” column.     address license certifications that
                                                        included free licenses; targeted
                                                        completion dates for those actions;
                                                        titles of officials responsible for those
                                                        actions; and verification that FWS
                                                        headquarters officials reviewed and
                                                        approved of actions taken or planned
                                                        by the Division. We will refer
                                                        recommendations not resolved and/or
                                                        implemented at the end of 90 days
                                                        (after January 14, 2009) to the
                                                        Assistant Secretary for Policy,
                                                        Management and Budget for
                                                        resolution and/or tracking of
                                                        implementation.




                                             22
  Report Fraud, Waste, Abuse ,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone:Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free            800-424-5081
                  Washington Metro Area        703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
